>:
■'45* '
#'

IN THE

5189

SUPREME COURT OF THE UNITED STATES
DOCKET NO:

DONALD M. BOSWELL
Petitioner
supre
VS

13 2021
STATE OF LOUISIANA
Respondent

2£2£eoFrHec

y=RK

ON PETITION FOR WRIT OF HABEAS CORPUS
DUE TO EXTRAORDINARY CIRCUMSTANCES

Brief for Petitioner
PETITIONER FOR WRIT OF HABEAS CORPUS
28 U.S.C. §2241(b)
28 U.S.C. §1651(a)

Donald M. Bos
DOC #567056
David Wade Correctional Center
670 Bell Hill Road - N5D
Homer, Louisiana 71040-2150

RECEIVED'
JUL | 9 2021
supIr#i^FcoiIjrtLF.,Ik

'

QUESTION(S) PRESENTED
Was the denial of Petitioner's request for a Certificate of
Appealibility (COA) to file a second or successive feredal habeas
corpus for new claims for constitutional substantive vioalitions of
his Fifth, Sixth and Fourteenth Amendment rights proper, OR did the
Federal Disrtic Court and the Fifth Circuit Court of Appeals fail
to give their full consideration to the substantual evidence which
the Accused has put forth in support of his prima facie case of a
denial of his constutitional right to be competently represented by
a qualified attorney at every stage of hsi court proceedings, and
thereby the Courts sidestepped the appropriate process by first
deciding the merits of his appeal as follows:
that

"Boswell fails to make the requisite prima facie
showing. See §2244(b)(3)(C)."

when the decision of the lower court made erroneously without first
granting him a COA authorizing the Court of Appeals to review and,
therefore, essentually deciding his appeal with out jurisdiction
as was the issues presented in the Miller-El v Cockrell, 573 US 322
(2003) case?

i

A

& '

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
District Attorney for the 26th Judicial District Court of
Louisiana:
J. Schuyler Marvin
Courthouse
410 Main Street
Minden, LA 71058-0378

ii

>'

TABLE OF CONTENTS
QUESTION'S) PRESENTED

i

LIST OF PARTIES

ii

TABLE OF AUTHORITIES CITED

iii

OPINIONS BELOW OF LOWER COURTS AND JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1-5

PETITION FOR WRIT OF HABEAS CORPUS DUE TO EXTRAORDINARY
CIRCUMSTANCES

1-15

STATEMENT OF THE CASE

1-5

REASONS FOR GRANTING THE PETITION

1-13

CONCLUSION

iv

PROOF OF SERVICE

V

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

vi

INDEX TO APPENDICES
APPENDIX A

Decision of the Court of Appeals for the
Fifth Circuit

APPENDIX B

Decision of the Federal District Court

APPENDIX C - Decision of the Louisiana Supreme Court Denying Writ
APPENDIX D - Decision of the Louisiana Second Circuit Court of
Appeal Denying Writ for: Review
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Barefoot v Estella,
463 US 880, 77 L.ED.2d 1090, 103 S.Ct. 3383 (1983)

9

Carey v Safford,
536 US 214, 220, 122 S.Ct. 2134, 153 L.ED.2d 260 (2002)

4

Edwards v Arizona,
451 US 477, 101 S.Ct. 1880, 68 L.ED. 2d 378 (1981)

13

Hohn v United States,
254 US 236, 256, 141 L.ED.2d 243, 118 S.Ct. 1969 (1998)

13

Miller-El v Cockrell,
537 US 322, 154 L.ED.2d 931, 123 S.Ct. 1029 (2/25/03)

2

Slack v McDanial,
529 US at 481, 146 L.ED.2d 542, 120 S.Ct. 1595

9

Fields v Johnson,
159 F.3d 914, 916 (5th Cir. 1999)

3

Kasi v Anqelone,
300 F.3d 487 (CA4, 2002)

10

Otto v Johnson,
192 F.3d 510, 512 (5th Cir. 1999)

3

Wheat v Johnson,
238 F.3d 537 US 349 (CA5, 2002)

10

STATUTES AND RULES
28 U.S.C.
28 U.S.C.
28 U.S.C.
28
28
28
28

U.S.C.
U.S.C.
U.S.C.
U.S.C.

§2244(d)(2)
§2253

2
6, 9
4

§2253(c)(1)
§2253(c)(2)
§2253(c)
§2254

3, 4
3, 5, 9
4

§ 2254(d)(2)

Antiterrorism and Effective Death Penalty Act of 1996, AEDPA

3

LOUISIANA SUPREME COURT
Rule 1. Rules Pertaining to the Defense of Indigents
iii

2

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

UNKNOWN
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the United States district court appears at Appendix
the petition and is

B__to

UNKNOWN
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix —Q— to the petition and is
UNKNOWN
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the second circuit court of appeal
court
appears at Appendix
to the petition and is
UNKNOWN
[ ] reported at______
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

r
JURISDICTION

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was MARCH 24. 2021_____
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was 11/04/20
A copy of that decision appears at Appendix
c
[ ] A timely petition for rehearing was thereafter denied on the following date:
- ) and a copy of the order denying rehearing
appears at Appendix
[ J An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisiions are
involved in this case*
U.S. CONSTITUTION

AMENDMENT XIV

Section 1. All persons born or,naturalized in the United
States, and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside. No state
shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
28 U.S.C. §2254
(a)

The Supreme Court, a Justice therein, a circuit judge, or a

district court shall entertain an application for a writ of habeas
corpus on behalf of a person in custody pursuant to judgment of a
state court only on the ground that he is in custody in violation
of the Constitution or laws or treaties of the United States.
(b)(1)

An applicant for writ of habeas corpus on behalf of a

person in custody pursuant to the judgment of a state court shall
not be granted unless it appears that ---(A)

the applicant has exhausted the remedies available in the

courts of the state; or
(B)(i)

there is an absence of available state corrective

process or (ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
1

The AEDPA substantially amended the habeas corpus statute codified

t

at 28 U.S.C. §2241 et seg. among other changes,
Congress, in 28 U.S.C. §2253, mandated that a state prisoner seeking
habeas corpus relief under 28 U.S.C. §2254 had no automatic right to
appeal a Federal District Court's denial of such relief. Instead,
such a prisoner first had to seek and obtain a certificate of
appealability (COA).
28 U.S.C. §2253(c) -which established procedural rules and requires
a threshold inquiry into whether a Court of Appeals may properly
entertain such an appeal - a COA determination requires an overview
of the claims in a habeas corpus petition and a general assessment
of their merits, by (1) looking to the District Court's application
of AEDPA to a prisoner's constitutional claims, (2) asking whether
that resolution was debatable among jurists of reason, This
threshold inquiry does not require full consideration of the federal
or legal bases addressed in support of the claims.
28 U.S.C. §2253(c)(1), mandates that unless a "circuit justice of
judge" issues a COA, an appeal may not be taken to a Federal
Court of Appeals. As a result, until a COA has been issued, Court
of Appeals lack jurisdiction to rule on the merits of appeals from
such habeas corpus petitioners.
28 U.S.C. §2253(c)(2), consistant with the United States Supreme
Court's precedant and thentext of the habeas corpus statute, a
prisoner seeking a COA had to demonstrate a substantial showing of
the denial of a federal constitutional right.
2

285U.S.C. §2253(c)(2), A prisoner satisfies this standard by
demostrating that jurists of reason could disagree with the
district court's resolution of his constitutional claims or that
jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.
28 U.S.C. §2253, as amended by the AEDPA, the issuance of a COA
to review a Federal District Court's denial of habeas corpus relief
to a state-prisoner must not be pro forma or a matter of course.
28 U.S.C. §2254(e)(1)/ Factual determinations;by state courts are
presumed correct absent Olear and convincing evidence to the
contrary; and
28 U.S.C. §2254(d)(2), a decision adjudicated on the merits in a
state court and based on a factual determination will not be
overturned on factual grounds unless objectively unreasonable in
light of the evidence presented in the state-court proceeding.
28 U.S.C. $2254
(a)

The doctrine of equitable tolling preserves a plaintiff's

claims which strict application of the statute of limitations would
be inequitable. The petitioner bears the burden of proof concerning
equitable tolling, and must demonstrate rare and exceptional cir­
cumstances warranting application of the doctrine. The doctrine will
not be applied where the applicant failed to diligently pursue
harbeas corpus relief under 28 U.S.C. §2554, and ignorance of the
law, even for an incarcerated pro se petitioner, generally does not
3

excuse prompt filing. Courts must consider the individual facts and
circumstances of each case in determining whether equitable tolling
is appropriate.
(b)

An appellate court reviews the court's application for

eqitable tolling doctrine for abuse of discretion, and reviews the
court's findings of facts for clear error and its determinations
of law de novo.
28 U.S.C. §2244
(a)

In the context of federal habeas corpus procedures, 28 U.S.C.

§2244(d)(2) tolls the limitation provision for filing a 28 U.S.C.
§2254 petition during the pendency of certain state court pro­
ceedings The time during which a properly filed application for
state post-conviction or other collateral review with respect to
the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under the subsection 28 U.S.C.
§2244(d)(2).
(b)

The 1-year statue of limitations for seeking federal habeas

relief from a state-court judgment is tolled ;while an "application
for state post-conviction of other collateral review" "is pending"
28 U.S.C. §2244(d)(2).
**Read naturally, the text of §2244(d)(2) must mean that the
statue of limitations is tolled only while state courts review the
application.
(c)

The United States Court of Appeals for the Fifth Circuit

4

defines a properly filed state application for post-conviction
review as one that conforms with a state's applicable procedural
filing requirements, and defines procedural filing requirements as
those prerequisites that must be satisfiednbefore a state court
will allow a petition to be filed and accorded some level of
judicial review.
(d)

To be entitled to equitable tolling of a limitations period

for filing a claim, litigants must show that (1) the litigants have
been pursuing their rights diligently, and (2) some extraordinary
circumstances stood in the litigants' way and prevented timely
filing.
28 U.S.C. §2244(d)(li(A)
Refers to "the date on which the judgment became*.final by the con­
clusion of direct review or the expiration of the time for seeking
such review."
28 U.S.C. §2263(b)(2)
Contains a limitations period that is tolled "from the date on
which the first petition for post-conviction review or other
collateral relief is filed until the final state court disposition
of such petition."

5

PETITION FOR A WRIT OF HABEAS CORPUS DUE TO
EXTRAORDINARY CIRCUMSTANCES
Petitioner, Donald M. Boswell, now respectfully sets out
specifically how and where he has unsuccessfully exhausted all the
available remedies in his state courts showing the exceptional
circumstances pursuant to Rule 20.4(a) that should warrant the
exercise of this Court's descretionary powers of relief where the
violations of Brady v Maryland, 373 US 83 (1963), and of his Fourth,
Fifth, Sixth, Eighth and Fourteenth Amendment rights of Due Process
that may have unlawfully imprisoned him pursuant to the judgment of
conviction and imposed sentence entered in the Webster Parish Court
house for Louisiana, docket no. 80,663. The relevant facts and his
claims of extraordinary circumstances that have lead up to the
Statement of the Case in the instant habeas corpus are listed, in
approximate order of filing, herein as follows:
•

1.) On Monday, August 3, 2009, at 9:30am, and unbeknownst

to him, the record shows that the Grand Jury did indict Mr. Boswell
on the capital offense of Aggravated Rape and Indecent Behavior of
a Juvenile, even though the alleged victim was still allowed to live
with the Defendant until August 6, 2009, when she left to spend a
(7) day week at her dad's house. However, Mr. Boswell was never
accused of any wrong doing by the victim's parents until (8) eight
days after his secret indictment, when on August 11, 2009, the first
initial police report was filed charging him with "a possible att.
carnal knowledge of a juvenile" and an arrest warrant was issued,
but was never served by the police.
1

e

2.) A TRO (Temporary Restraining Order) was issued and on

August 19, 2009, Petitioner retained private counsel to represent
him when the Order was enforced by the court and Petitioner was then
informed, by his attorney, to live his life as a free man.
e

3.) On October 6, 2009, pursuant to a NO KNOCK SEARCH

WARRANT, specific to his residence, and an arrest warrant was

■'

issued at 9:30pm, the Sheriff's Office and an FBI ASAC agent did
execute a search of Mr. Boswell's residence, collecting items of
interest, many of the items having no nexus between any criminal
activity and the items taken, nor were they listed on the search
warrant to be seized. No evidence bags or latex gloves were used to
collect the evidence. The items were just piled into the back of
Detective Scotty Tucker's Dodge Durango. A violation of Boswell's
Fourth Amendment right of government search and seizure.
0

4.) Petitioner arrived to his residence shortly thereafter

the search had begun and parked his truck at a neighbors house (3)
houses away. When he stepped foot on to his property he was then
arrested by Det. Tucker and Mirandized. His keys and wallets were
also confiscated. At which time Petitioner informed Det. Tucker
that he already had an attorney retained and wished to speak to
him. But Det. Tucker stated it was too late at night to call an
attorney and continued to initiate his interrogation of Mr. Boswell.
e

5.) When Petitioner was being transported to the Sheriff's

Office he noticed a deputy unlawfully enter another person s yard
to retreive his truck and drove it onto

his property to search it

as well pursuant to the warrant specific to any vehicles being
2

already on his property.
©

6;) Once at the Sheriff's Office, Det. Tucker continued a

police initiated start-n-stop technique to illicit answers from Mr.
Boswell during his interrogation and without his already retained
counsel present* A Fifth Amendment violation
©

7.) Petitioner asked (4) four more times to speak with his

attorney, but Det. Tucker stated he could have his attorney present
in the morning during him formal interrogation.
• 8.) Petitioner was threatened to confess, that if he did not
confess to the charges then he would be placed in the prison general
population and expose him as a former cop and baby raperv- He was
then promised that if he gave a voluntary statement then he would
receive no prosecution since he was "One of us. You know a deputy".
©

9.) During his arraignment, on October 9, 2009, his private

counsel had to recuse himself due to fact that his father was picked
as the trial judge in Mr. Boswell's case. A Public Defender was then
assigned, but was not present in court that day. A substitute
attorney entered a plea of not guilty on the capital indictment
charge of Aggravated Rape and Indecent Behavior-with a Juvenile.
• 10.) The Public Defender took over 90 days to make contact
with Mr. Boswell. At which time the Attorney, Larrion Hillman,
stated that his case would be thrown out at trial. He gave a copy
of discovery papers to Petitioner that contained many discrepancies
false and misleading statements in the police report but counsel
did not care since he was going to get the case thrown out,anyway.
® 11.) April 5, 2010 counsel was (3) hours late for the plea
3

hearing, at which time the courtroom was cleared of all persons
except members of the court, the Defendant and his mother. Counsel
was given a few minutes to discuss the plea deal with his client in
a private court chamber. Counsel did advise that he had been hand
picked by the district attorney to only process the defendant
though the system, he did not care if the Defendant was guilty or
not, he stated there will;be no trial allowed and if Mr. Boswell
insisted on going to trial then he would receive an automatic life
sentence, and that the district attorney had the option of seeking
the death penalty on the capital offense.
© 12.) Instead Petitioner was to take the pdfea offer of an
amended charge for an Attempted Aggravated Rape and with the lesser
Indecent Behavior charge dropped. Then counsel incorrectly stated
that Mr. Boswell could receive a possible sentence of 0-5 years or
a suspention of sentence or probation but that would be at the
judge's discretion to do so.
© 13.) Counsel then coached Mr. Boswell how to answer the
judge's questions and when asked if he had been threatened or
coerced or promised anything to accept the plea deal he was advised
to say NO.
© 14.) During plea hearing the Judge advised Defendant of the
rights he would be giving up for accepting a plea, then, he too,
incorrectly stated the sentencing range of (0-50) years when he
told the Defendant could receive a sentence of (0-49%) ! years and
that the sentence benefits were unknown to the court at that time,
but would be determined at his sentencing. Prosecution made no
recommendations for sentence imposed.
4

©15.) Mr. Boswell unknowingly and unintelligently entered
into a plea of guilty to avoid a life sentence or the possibility
of the death penalty. When the judge asked Mr. Boswell if he had
been threatened or coerced into accepting the State's plea, he
stated YES he had, but his counsel slapped him on his arm and asked
the court for a brief minute to consult his client. Mr. Hillman
strongly told Petitioner that he was to tell the judge NO.
Mr. Boswell then followed his attorney's direction and changed
his answer to NO he had not been threatened or coereced as the
record will reflect.
©16.) Court documents show that there was no official plea
agreement ever entered into record.
© 17.) June 21, 2010, at his sentencing hearing the judge did
ask once more if the Defendant had been threatened or coereced to
accept his plea. When Mr. Boswell said YES ihe had, again his
attorney slapped him on his arm and told him in no uncertain terms
to say NO.;Mr. Boswell changed his answer to NO as he was told.
© 18.) The trial judge, based on belief and attorney statement,
was mislead of the facts, in his case, by the State, and therefore,
the aggravating factors he listed in sentencing Mr. Boswell were
incorrectly applied making his case to appear worse than the truth.
After a lenghthy speach the judge imposed a maximun sentence
of 49% years then reduced it due to Mr. Boswell's health to 48 yrs
flat without benefit of sentence. He then remanded Boswell to the
Dept' of Corrections even though his attorney had said he would
only get between 0- <and 5 years with possible sentence benefits.
5

© 19.) After his sentence was imposed and executed the Assist.
District Attorney stood up and had a conversation with the judge,
but without Boswell's counsel, requesting an increase in punishment
by making Mr. Boswell pay an additional $4800.00 to the victim's
father for any future counseling for the victim that the state was
already paying for in another criminal case dealing with the
victim's grandfather for his offenses, also all of the items seized
from Mr. Boswell's house were to be sold and that money was to be
given to the victim's family as well.
© 20.) Five years later during his evidentiary hearing the
ADA angerly stated that the Defendant should have known that the
state was going to charge his with victim restitution. Which is a
violation of state statute, especially since his sentence imposed
did not carry the benefit of probation to permit victim restitution
neither were the rules and proceedures followed to determine if
restitution is required. Nor was it part of his plea agreement.
© 21.) The judge agreed and then added the sentence enhancement
even though Petitioner's sentence did not carry benefit of any
restitution which is a condition of probation. His attorney did not
object to anything the judge added to the sentence, but simply
stated that he would take care of it on direct appeal.
® 22.) Counsel filed a basic Motion to Reconsider Sentence
that briefly stated Defendant was a productive member of society
and that he owned his won business with no criminal history and he
sentence should be reconsidered. Which was immediately denied.
© 23.) Petitioner's family hired a private Attorney, Marty
6

GrossJean-Pearson, in July 2010 to file an appeal on his behalf to
the Second Circuit Court of Appeal for Louisiana. The district
court refused to allow his counsel to have a copy of his case file.
Mr. Boswell gave Ms. Pearson most of his copy of his discovery paper
work so an appeal could be made. But Ms. Pearson filed his appeal
based on hearsay by the District Attorny's Office and other false
statements that was incorrect and misleading information that Mr.
Boswell did not say or do in his case. Ms. Pearson never provided
a copy of her brief to Petitioner for him to review and she waited
more than 6 months to file said appeal.
The appellate court denied her appeal citing " Improper format by
the Attorney”. And the discrepancies have gone uncorrected to this
day.
© 24.) Petitioner, along with 19 other clients filed a claim
against Ms. Pearson and she was ultimately disbarred from practicing
law for life in 2012.
© 25.) Then his orisOn inmate<counsel filed a Supervisory Writ
to Review to the Louisiana Supreme Court (LSC) where the court lost
his case file for several months once found it was immediately
denied citing defendant must file his Post-Conviction Relief (PCR)
first before the above appeal could be ruled on.
® 26.) Petitioner filed his first PCR, pro se', on May 8, 2012
for the following (3) claims:

2.

Sixth Amendment Violation - Right to Effective Assistance
of Counsel
Excessive Sentence

3.

Illegal Sentence

1.

7

However, the district court lost his PCR application for over a
year before it was discovered again.
®- 27.) After transversing back and forth with his district
court and until an undersigned contradictor Attorney, Tristan Gilley
was appointed to represent him on February 28, 2013.
Both the State and defense counsel filed multiple memorandums
starting June'28, 2013 through October 28, 2013 for Motions for
Leave to Supplement Post-Conviction petitions were settled.
An evidentairy hearing was ultimately granted and held on
January 24, 2014. The argument became whether or not a Boykin
violation would serve as a basis for granting the Defenant's post­
conviction relief claims.
March 11, 2014, the court issued a written ruling denying
Petitioner's application for post-conviction.
Petitioner filed a Motion for Rehearing and Reconsideration,
which was granted and set for rehearing on April 21, 2014.
At the rehearing the court ordered both the State and the
Defendant to file additional written briefs to be heard on June 9,
2014.
There were (5) different hearings in total. At each hearing
the ADA would inform the court that they had lost Petitioner's
case file in a flood. The ADA even requested that the judge to
Order defense counsel (30) days to find Petitioner's case file
"If he could". The judge granted the Order, but no case file was
ever found. So; finally on the 5th or last hearing the judge asked
the ADA

"If you don't have a case file of the defendant, then how
8

are you keeping him in prison?"
The ADA responded "About that*, we need to have a private side
bar with you and without the defense1. V After said side bar the judge
denied pbst-conviction relief to the Defendant and would hear no
more about the case.

case dismissed.

His counsel made an oral request to file an appeal, which was
granted. Again case denied and dismissed on June 9i,-> 2014.
© 28.) Petitioner in a civil matter filed a claim of a Fourth
Amendment violation of unlawful seizure of property in a criminal
matter and for not properly returning the items according to the
state statute. However, the trial judge in Boswell's case was going
to retire in a few months and left that file for the new incoming
judge to deal with. The new District Judge, Charles Jacobs, did
respond in letter to Mr. Boswell concerning his lawsuit and cited
that he refused to allow Petitioner forward litigation for his
claims against the state arid his case was frozen in court.
© 29.) Attorney Gilley in issue #26 filed an appeal on August
6, 2014 to the 2nd C^G.A. but never gave a copy to Petitioner or
even l&te him know that his appeal had been denied and then counsel
abandoned him. The 2nd C.O.A. also did not let Petitioner know of
the results of his appeal.
© 30i0 After several months had past without hearing from hiss
attorney Petitioner inquired to the appellate court of the status
Of his appeal only to learn of its denied.
Petitioner filed a Writ of Mandamus requesting the court order
Mr. Gilley to provide him with a copy of his appeal brief and denial.
9

The appellate court granted his writ of mandamus.
© 31.) Petitioner also filed several Motions for Production
of Documents to his district court each time the court refused to
grant his request each time citing different reasons. Finally after
his family went and spoke to the Clerk of Court, she said if he
would file another motion she would make the copies he needed at a
cost of #1.50 per page.
Petitioner followed the Clerk's directions and filed another
motion only to receive a response that stated each copy will cost
him $35.00 per page and all the pertinent documents he requested
could not be reproduced since they had been destroyed in a flood of
their file storage room. Petitioner did not receive any of the
documents he had requested.
© 32.) In a seperate incident back in 2010 when Petitioner had
to give most of his case flie to Ms. Pearson so she could file an
appeal. He later filed a Motion for Copy of Public Record for
another copy of his Bill of Indictment requesting an explaination
as to why he had been indicted on August 3, 2009, (8) days prior to
ever being accused of any wrong doing. The Clerk mailed him a copy
of his Bill of Indictment with a new date stamped in red of October
26, 2099, which is 20 days after his arrest. Also it showed that the
district attorney had handwritten a change in the dates of offense
after his indictment expanding the time frame from one day to a
period of over (9) nine months.
© 33.) Petitioner questioned the Clerk as to why the dates had
been changed on his indictment. The Clerk responded that those wer©
10

the dates on record for his indictment. After further (insider)
research Petitioner learned that on October 26, 2009, the Grand Jury
did not convene to indict anyone. That October 26th had been a
randum date chosen to make it appear as if he had been indicted
after his arrest rather that before his accusal and it was the
district attorney, himself, who had made the changes to Boswell's
Bill of Indictment by placing his own signature on the indictment
in his handwritting.
The Clerk made no further response to his request concerning
his Bill of Indictment.
© 34.) Immediately after receiving a denial fronu;the 2nd C.O.A.
Petitioner filed a Supervisory Writ to the LSC (11) days later.
The LSC received his brief on January 6, 2015 and assigned a
docket number. However, a huge discrepancy occured and somehow a
court clerk looked up the wrong docket number from the past for the
court to review and his case was dismissed as "UNTIMELY" filed.
Through correspondence the discrepacy was eventually corrected
and his writ was reinstated as "pending review by the LSC", but no
further movement was made.
When Petitioner mailed a letter seeking a progress report on
his case file the clerk AGAIN inadvertently mixed up his docket
numbers further complicating matters and the files were mixed up
even worse than before.
On April 19, 2016, he placed a legal call to the Clerk of the
Louisiana Supreme Court, after searching, the CLerk advised him that
his writ had been lost months aqo and he was given permission to
11

refile his original writ and granted another new docket number.
For the next (12) months, Mr. Boswell continued to monitor
his wirt progress via phone, website, or by written correspondence
with the court's clerk, always receiving a response of "Writ Still
Pending Review".
On May 19, 2017, Mr. Boswell received a letter of denial of
his Supervisory Writ citing "WRIT NOT CONSIDERED as UNTIMELY
FILED" due to the January 6, 2015 discrepancy from; the fault of the
appellate court and that of the Louisiana Supreme Court.
After a family member called the Chief Clerk for the LSC, Mr.
Olivier, concerning the above denial, the Clerk gave permission for
Mr. Boswell to resubmit a new brief for the court to review.
Petitioner Boswell in June of 2017 refiled his original
criminal brief and did also file an Application for Supervisory
Writ on a civil matter from the denial of the 2nd C.O.A. to the
LSC for both to be reviewed.
LSC denied both writs citing AGAIN

due to his untimely filing

of each writ his writs were "NOT CONSIDERED" because the clerk from
the 2nd C.O.A. and the clerk of the LSC had mixed up his docket
numbers, therefore.

the court issued a statement to Mr. Boswell

that he has exhausted all his state remedies.
© 35.) In the meantime Petitioner discovered New Evidence in
his case and filed a 2nd Post-Conviction Application on September
27, 2017 for the following (2) claims:
1.

No Plea Agreement - on record

2.

Sixth and Fourteenth Amendment violations for Right to
12

because his defense
Effective Assistance of Counsel
counsel was unqualified to represent him in a capital
case, a violation of the rules set forth by the LA
Supreme Court for Part 1, Rule XXXI(A)(1)(a).
The district court denied Petitioner's post-conviction application
as "previously raised similar claims" on November 6, 2017 without
ever reviewing .the merits of his claims.
© 36.) Petitioner appealed to the 2nd C.O.A. where his case
file was again lost, once discovered was denied on January 25, 2018
as "On the Showing Made."
© 37.) Petitioner then filed=a Supervisory Writ to Review to
the LSC on February 5, 2018, but he never received a confirmation
letter. His family called the Chief Clerk and was advised that the
court had not received said writ application, even though it had
been sent as certified mail.,from his prison. He was told to refile
his writ which he did on March 1, 2018, again via certified mail.
® 38.) While he "writ was still pending review" Mr. Boswell
prepared and filed an application for his first Habeas Corpus
pursuant to §2244(d)(2) on March 16, 2018 via certified mail.
Again, his application was lost if the federal district court for
over 100 days before the error was discovered.
The record suggest that the state-created impediments that
have prevented the filings of Mr. Boswell's petitions for writ of
habeas corpus in a timely manner, See 28 U.S.C. §2244(d)(1)(b),
due to the afore mentioned lost or mixed up docket numbers by the
state and even in the federal district court.
© 39.) Petitioner later learned that his Fifth Amendment right
13

had been violated and did find state procedural statues that
allowed him to file, on December 10, 2019, a third Post-Conviction
Relief Application to his district court raising the foilwing (2)
claims:
1.

Confession obtained in violation of the Louisiana and US
Constitution of the Fifth Amendment protection against
self-incrimination without prior, to his arrest, retained
counsel present during interrogation.

2.

Violation of the Louisiana and US Constitution to the
Sixth Amendment to the states by the terms of the
Fourteenth AMendment right to effective assistance of
counsel when counsel refused to file a motion to suppress
confession.

@ 40.) The district court denied his PCR on December 23, 2019,
citing "court has previously Ruled on Petitioner's allegations
regarding ineffective assistance of counsel as repetitive."
© 41.) January 16, 2020, Petitioner filed a Supervisory Writ
to Review the district courts decision. On March 19, 2020, the
appellate court Ruled.his writ as "WRIT NOT CONSIDERED", citing
Applicatant has failed to include copies of any filinq made of
Rulings of the trial court.
© 42.) On April 6, 2020, Petitioner did file an Application
for Supervisory Writ to Review to the LSC citing that he had,
indeed, included the whole exhibit content within and along with
his application for supervisory writ to review to the 2nd C.O.A.
via certified mail which included a weight amount. But somehow all
his exhibits had been lost or misplaced after leaving the prison
mailroom or the appellate court simply misplaced his exhibits
again themselves.

14

$43.) Then covid hit and the courts were shut down or
delayed, but on November 4, 2020, the LSC denied Petitioner's
Writ Application without reasons.

For all the above reasons the merits of Mr. Boswell's claims
have always been denied him based on some procedural error, that
is of no:, fault of his own, but rather is a state-created
impediment that has prevented the merits of his claims from having
ever been reviewed proDerly by any court.
There is a "Subtantive Due Process" in his claims, which is
a Fourteenth Amendment violation, that bars certain arbitary
wrongful government actions regardless of fairness of procedures
used to implement them and, therefore, must be remedied by immediate
dismissal of charges.

15

STATEMENT OF THE CASE
Petitioner, after the fact, found state proceedural statute
that allowed him to file a thrid post-conviction application for the
two claims of a denial to a substantial constitutional right listed
therein which he diligently pursued all the way through to his
state's highest court DENIED on November 04, 2020.
Mr. Boswell filed, on December 22, 2020, a second or successive
federal habeas corpus for two claims, both are new issues of a sub­
stantial showing of the denial of his constitutional Fifth, Sixth
and Fourteenth Amendment rights of due process, docket of (Case No.
5:20-CV-01609 SEC P), showing the state's violations, through police
initated questioning during his interrogation, by way of random and
manipulative conversation using multiple start-stop techniuqes,
threats of harm , and offerings of false promises of no prosecution.
That did illicit a coerced and unconstitutionally obtained a selfj

incriminated confession, of a capital offense, from the Accused
without allowing his attorney to be present, even after he had
asked to speak with his private attorney (retained 2 months prior
to his arrest), 5 different times, that night, during his police
interrogation. That attorney later had to recuse himself for con­
flict of interest since his father had been assigned as the trial
court judge in the Accused's case.
A new court-appointed attorney was then assigned to represent
him. Said attorney did refuse to file a motion to suppress the
Petitioner's unconstitutionally obtained confession for without,
there more than likely would have been no conviction for the State.
1

The above claims are the original results of a reverseable
Constitutional Sixth Amendment violation by the district judge when,
during his arreignment, he did assign an incompetent and a very
unqualified attorney, hand picked by the district attorney, to
Mr. Boswell as he was originally indicted on the capital
charge of Aggravated Rape and a lesser charge of Indecent Behavior
with a Juvenile. The district court judge failed to institute the
rules set forth by the Louisiana Supreme Court pertaining to the
defense of indigent defendants in a capital case. Where according
to Part 1. RULES PERTAINING TO THE DEFENSE OF INDIGENTS
Rule XXXI (A)(1)(a) - Indigent Defender Standards
provides:

In any capital case in which a defendant is found to
be indigent, the court shall appoint no less than (2)
attorneys to represent the defendant. At least two of
the appointed attorneys must be certified as qualified
to serve in capital case, inter alia.

Petitioner Boswell avers that he was deprived of his consti­
tutional right to effective assistance of counsel in the very
beginning of his court proceedings when the district court erred
in assigning ONLY ONE (1) attorney, a Mr. Larrion Hillman, who was
a small personal injury and civil attorney with very little criminal
experience. Mr. Hillman was NOT qualified to nor certified by the
LIDA Board to handle capital cases and certainly not by himself.
Which leads itself to the DENIAL of the habeas corpus at hand,
where once filed the federal District Court Clerk misread the title
on his application and mistakenly mailed said habeas back to his
State's Fifth Circuit Court of Appeal rather than to the Federal
2

A provision that sets forth a 1-year statute of limitations for
seeking federal habeas relief from a state-court judgment is tolled
while an "application for state post-conviction or other collateral
review" "is pending 1" See also Corey v Saffold.
The District Court's Report and Recommendation DENIED his
habeas application as UNITMELY filed and he was given (14) days to
give written objection. In Petitioner's returned objection he did
state-,'the untimely filing was NOT HIS FAULT, but rather the fault
of the District Clerk's and he further explained by showing a
chronological style list of his filing dates and that nearly all
of his pro se' state, including in his federal, appeals had* either
been lost or misfiled and delayed by state-created impediments by
all his state's courts for years on end and he had certified proof
of his timely filings in said courts.
Petitioner also renewed his request to the Court of Appeals
for the Fifth Circuit for a COA on September 14, 2018 and on
April 02, 2019 (Case No. 18-30931) and was DENIED as well by
responding as follows, in part:
"Boswell contends that, due to several alleged errors by
state court officials in processing his post-conviction
filing, his §2254 petition should be considered timely
filed through application of 28 U.S.C. § 2244(d)(1)(B)
because he encounted state-created impediments. He also
asserts that he is entitled to equitable tolling on account
of the alleged state court processing errors and his
diligence in pursuing relief.
Because he has failed to make the requisite showing,
Boswell's application for a COA is DENIED.
4

signed:

KURT D. ENGELHARDT
U.S. CIRCUIT JUDGE

Therefore, because the lower court's decision was erroneous
in DENYING Petitioner COA based on errors of procedural processing
for relief rather than on the merits of prima facie for "a sub­
stantial showing of the denial of a constitutional right," have
never been reviewed in either his first nor his current application
for a second or successive habeas relief and should still be
considered new claims for review where a COA is issued.

5

REASONS FOR GRANTING THE PETITION

The rights of an accused to be represented by competent
counsel is fundamentally established by the guarantees of the Sixth
Amendment. The jurisprudence has consistantly held that the utmost
significance of their fundamental right is particularly importantre'
nationally in the care of indigent defendants at all stages of their
criminal litigation process, from pre-trial to trial all the way
through post-conviction.
Indigent defendants, and indeed non-indigent defendants as well,
are all adversely affected by the appointment of, or engagement of,
incompetent counsel. This is, again, particularly significant in the
case of court-appointed attorneys. Trial courts, as the gatekeepers
of the justice system, play an obviously vital role in ensuring the
integrity of the criminal litigation process, as it relates
specifically to the administration of justice, by appointing
qualified and competent counsel to represent indigent defendants.
This is not a simple "rubber stamp" process. Indigents, like the
defendant in the instant habeas corpus at hand here, are fully
entitled to the same fundamental constitutional rights as nonindigent defendants. Their guarantees are not sacrificed because of
their poverty or financial deficiences. To the contrary, because of
their inability to select qualified, reputable and competent counsel
of their choosing, the role of the trial court to ensure such
representation in accordance with the Sixth Amendment is enhanced,
and should always be a paramount consideration in the early stages
of the attorney-client engagement.
1

i

Material constitutional violations, especially as the severity
of injustice has been brought to light through recent events in this
country, should not be cast aside due to superfluous procedural
deficiences, ease of disposition, or convience. Every simgle
defendant similarly situated, as the defendant here in the instant
habeas, should receive proper judicial scrutiny and consideration
of blatant, and potentially devastating

mistakes resulting in

violations of a defendant's constitutional rights. Nothing in this
great country is more important than the liberties, rights and
guarantees offered to individuals by our magnificant constitution.
It should never be disregarded, abused or improperly applied. The
catastrophe inflicted by unchecked constitutional violations is a
national disease. The power to cure rest within the great authority
of this, the Highest Court in the land. Please, allow the cause of
constitutional justice to guide. The new directive must come from
the top to ensure justice for all.

On certiorari, the Supreme Court reversed and remanded a
similar case involving the same District Court and Court of Appeals
for the Fifth Circuit for the DENIAL a COA — Miller-El v Cockrell,
537 US 322, 154 LED.2d 931, 123 S.Ct. 1029 (Feb, 25, 2003). In an
opinion by Kennedy, J • 9 joined by Rebnquist, Ch.J •
O'Conner, Souter, Breyer, J.J •

9

9

and Stevens,

and both the late Scalia and

Ginsburg, —
(in the instant writ for certiorari the lauguage is used
from the above cited case that applies in part).
2

— it was held that:
Under the standars imposed by the Antiterrorism and Effective
*pg. 935 Death Penalty Act of 1996 (AEDPA)(PL 104-132) before a
Federal Court of Appeals may properly issue a certificate of
appealability (COA) to review a Federal District Court's denial of
habeas corpus relief, when a prisoner seeks permission to initiate
appellate review of such a denial, the Court of Appeals should
limit its examination to a threshold inquiry into the underlying
merits of the prisoner's claims, rather than ruling on the merit
of the prisoner's claims, for (1) a COA determination is a seperate
proceeding, one distinct from the underlying merits; (2) deciding
the substance of an appeal, in what should only be a threshold
inquiry, undermines the concept of a COA; and (3) the question is
debatability of the underlying federal constitutional claims, not
the resolution of that debate. Thus, consistant with the United
States Supreme Court's prior precedent and the text of the habeas
corpus statute (in 28 USCS §2253(c)(2)), a prisoner seeking a COA
need only demonstrate a substantial showing of the denial of a
constitutional right. Moreover, a prisoner satifies this standard
by demonstrating that jurists of reason could (1) disagree with
the District Court's resolution of the prisoner's federal consti­
tutional claims, or (2) conclude the issue presented are adequate
to deserve encouragement to proceed further. Under 28 USCS S 2253
(c)-which establishes procedural rules and requires a threshold
inquiry into whether a Court of Appeals may properly entertain
such an appeal-a COA determination requires an overview of the
3

claims in a habeas corpus petition and a general assessment of
their merits, by (1) looking to the District Court's application
of AEDPA to a prisoner's constitutional claims, and (2) asking
whether that resolution was debatable among jurists of reason.
This threshold inquiry does not require full consideration of the
factual or legal bases adduced in support of the claims. In fact.
the statute forbids it.
Accordingly, a Court of Appeals should not decline an
application for a COA merely because the Court of Appeals believes
that the applicant will not demonstrate an entitlement to relief,
for (1) it is consistent with §2253 that a COA will issue in some
instances where there is no certainty of ultimate relief, and (2)
when a COA is sought, the whole premise is that the prisoner has
already failed in that endeaver.
Under the standards of the AEDPA-where Congress, in 28 USCS
§ 2253, has mandated that a state prisoner seeking habeas corpus
relief under 28 USCS § 2254 has no automatic right to appeal a
denial of such relief and, instead, must first seek and obtain a
certificate of appealability (COA)-this reqirement is a juris­
dictional prerequisite, because 28 USCS § 2253(c)(1) mandates that
unless a "circuit justice or judge" issues a COA, an appeal may
not be taken to a Federal Court of Appeals. As^ a result1, until a
COA has been issued, Courts of Appeals lack jurisdiction to rule
on merits of appeals from such habeas corpus petitioners. Moreover,
when a Court of Appeals sidesteps the appropriate process by first
4

deciding the merits of an appeal-and then justifying the *pg. 936
Court of Appeals' denial of a COA on the basis of the Court of
Appeals' adjudication of the actual merits-the Court of Appeals is
in essence deciding an appeal without jurisdiction.
Which is what the Court of Appeals for the Fifth Circuit did
in the instant Boswell writ when the Court denial him a COA on more
than one reason in both of his first and second or successive
habeas applications. In his first attempt to seek a COA (Case No.
18-30931) the Court of Appeals denied him on the base as time barred
and then on further review stated that he did not make the requisite
showing of "a substantial showing of the denial of a constitutional
right" and whether the district court was correct in its procedural
ruling.
Then again in Petitioner's recent attempt to obtain a COA of
(Case No. 21-30104) the Fifth Circuit Court of Appeals stated that
his claims had been raised in his prior 28 U.S.C. § 2254 application
and after further review the Court concluded that Mr. Boswell fails
to make the requisite prime facie showing that his attorney refused
to suppress his unconstitutionally obtained and coerced confession.
In this Honorable Supreme Court's prior precedent and text of
the Habeas corpus statue (in 28 USCS § 2253(c)(2), a prisoner
seeking a COA need only demonstrate a substantial showing of the
denial of a constitutional right. Moreover* a prisoner satisfies
this standard by demonstaring that jurists of reason could (1)
disagree with the District Court's resolution of the prisoner's
federal constitutional claims, or (2) concludes the issues presented
5

are adequate to deserve encouragement further. In Petitioner's
habeas petition he satisfied not one but both of these standards
by substantial showing that his Sixth Amendment.right was denied
him when authorities coerced a police-initiated confession from
the Petitioner

without allowing his attorney, retained prior to

his arrest, to be present during his interrogation. Also when the
district court made a reversable error by failing to institute the
rules set forth by the Louisiana Supreme Court pertaining to the
defense of indigent defenders in a capital case. When the judge
assigned a court-appointed attorney to represent Mir. Boswell who
was not qualified or certified by the LIDA Board to represent
him in his capital case. At that moment Mr. Boswell was denied
the established fundamental guarantees provided forCin the U.S.
Constitution set forth in the great country by our forefathers
and the framers of the Constitution itself. Namely the great-great
grandfathers of the Petitioner's like James Maddison and before that
John Quincy Adams and his father,.John Adams, before that. If these
framers of the U.S. Constitution were thinking about how important
the liberties, rights, and guarantees that should be afforded to
every individual and if their own direct descendants cannot receive
equal justice, then one should ask, what was the purpose of them
even writing any of this country's constitution or the Bill of
Rights?
Under 28 USCS §2253 an amended by AEDPC, the issuance of a
certificate of appealability (COA) to receive a Federal District
Court's denial of habeas corpus relief to a state prisoner must not
6

be pro forma or a matter of course, for:
(1) Statutes such as AEDPA have placed more, rather than fewer,
restrictions on the power of federal courts to grant writs of habeas
corpus to state prisoners.
(2) The concept of a threshold, or gateway, test as a
prerequisite to appealability was not an innovation.of AEDPA.
(3) Instead, Congress-by enacting AEDPA and using the specific
standards which the United States Supreme Court has elaborated
earlier for the threshold test-confirmed the necessity and the
requirement of differential treatment for those appeals deserving;
of attention from those that plainly do not.
While a state prisoner seeking a certificate of appealability
(COA), under the standards imposed by the ADEPA, to review a Federal
District Court's denial of habeas corpus relief must prove something
more than the absense of frivolity or existence of mere "good faith"
on the prisoner's part, the prisoner is not required to prove, before
the issuance of a COA, that some jurists would grant the petition for
habeas corpus, for a claim can be debatable even though every jurist
of reason might agree, after the COA has been granted and the case
has received full consideration that the prisoner will not prevail.
Instead, for COA purposes, where a District Court has rejected a
state prisoner's federal constitutional claims on the merits, the
showing required to satisfy 28 USCS § 2253(c) is straightforward,
that is, the prisoner must demonstrate that reasonable jurists
would find the District Court's assessment of the constitutional
claims debatable or wrong.
However, in the habeas application at hand, the District
7

Court and the Court of Appeals both denied Petitioner's COA requestfor a "substantial showing of a denial of his constitutional right
as having been priviousely raised in his prior § 2254 application
even though the merits of his first habeas claims were never conr
sideredoor reviewed, but rather his request for a COA then was
denied as UNTIMELY filed due to the fault of the District Clerk's
carelessness. After further review the Court of Appeals for the
Fifth Circuit decided that Petitioner had failed to make the
requisite prima facie showing of the denial of a constitutional
right.
Mr. Boswell in his habeas corpus did demonstrate that any
reasonable jurists would find the District Court's assessment of
his constitutional claims debatable and wrong in that his Fifth,,
Sixth and Fourteenth Amendment rights had been violated and denied
him when he was interrogated without his attorney present and a
unconstitutional confession was obtained.
Then again when his district court erroneously appointed a
public defender to represent him in his capital case who was
neither qualified to or certified by the LIDA Board to represent
an indigent defendant in a capital case as required by the rules
set forth by the Louisiana Supreme Court Rule XXXI, when the
defense counsel refused to file a motion to suppress his coerced
and unconstitutionally obtained confession and also further talked?
his client into entering an unknowingly and unintelligently made
plea of guilty that ultimately resulted in his conviction.

8

When a habeas applicant seeks a COA, the Court of Appeals
should limit its examination to a threshold inquiry into the under­
lying merits of his claims. E.g., SlaeK v McDanial, 529 US, at 481
146 L Ed.2d 542, 120 S Ct. 1595. The COA determination *pg. 950
under § 2253(c) requires an overview of the claim in the habeas
petition and a general assessment of their merits. We look to the
District Court's application of AEDPA to petitioner's constitutional
claim: s

and ask whether that resolution was debatable amongst

jurists of reason. This threshold inquiry does not require full
consideration of the factual or legal bases adduced in support of
the claims. In fact, the statute forbids it. When a court of appeals
sidesteps this process by first deciding the merits of an appeal,
and then justifying its denial of a COA based on its adjudication
of the actual merits, it is in essence decidimggan appeal without
jurisdiction.
To that end, our opinion in Slack held that a COA does not
require a showing thatcthe appeal will succeed. Accordingly, a
court of appeals should not decline the application for a COA
merely because it believes the applicant will not demonstrate an
entitlement to relief. The holding in Slack would mean very little
if appellate review were denied because the prisoner did not
convince a judge, or, for that matter, three judges, that he or
she would prevail. It is consistent with § 2253 that a COA will
issue in some instances where there is no certainty if ultimate
relief. After all, when a COA is sought, the wholOcpremise is that
the prisoner

U «

has already failed in that endeavor.
9

I II

Barefoot,

supra, at 893, n4, 77 L Ed.2d 1090, 103 S.Ct. 3383.
Many Court of Appeals decisions have applications for a COA
only after concluding that the applicant was not entitled to habeas
relief on the merits-without even analyzing whether the applicant
had made a substantial showing of a denial of a constitutional
right.

See, e.g., Kasi v Anqelone, 300 F.3d 487 (CA4 2002); Wheat

v Johnson, 238 F.3d 537 US 349, (CA5 2002). Today the United States
Supreme Court disapproves this approach, which improperly resolves
the merits of the appeal during the COA stage.
Citing this Court's decision in Slack v McDanial, the Court
reasoned that "[a] petitioner, makes a

substantial showing' when

he demonstrates that the petition involves issues which are
debatable among jurists of reason, that another court could resolve
the issues differently, or that the issues are adequate to serve
encouragement to proceed further.
As an appellate court reviewing a habeas petition,tit is
required by § 2254(d)(2) to presume the state court findings
correct unless the appellate court determines that the findings
result in a decision which is unreasonable in light of the evidence
presented.
In the instant Boswell case at hand, his state district court's
decision to deny his relief in his post-conviction on (2) claims
was unreasonable in light of the evidence presented of a substanital
showing of denial of his constitutional right and ineffective
assistance of counsel for defense refusing to file a motion to
suppress.
10

He filed his PCKrelief application on December 10, 2019, but
the Clerk of Court again lost or misplaced his application and
once found, was then denied on December 23, 2019, as UNTIMELY and,
citing court has previously ruled on Petitioner's allegation
regarding ineffective assistance of counsel as repetitive,

Without

reviewing the merits of the evidence presented of the denial of his
constitutional rights resulting in a decision contrary to clearly
established federal laws as determined by this Honorable Court.
Petitioner appealed to the next appellate court where all his
appeal's exhibits werensomehow mysteriously missing. The appellate
court denies him as "WRIT NOT CONSIDERED',! on Petitioner's petition
seeking supervisory writ to review, citing applicant has failed to
include copies of any filings made or Ruling of the trial court.
Without reviewing his writ application he was denied.
Petitioner appealed to his state's supreme court where he
was again denied as "WRIT NOT CONSIDERED"

without reporting a

reason for the denial.
After filing a second or successive habeaseto the Federal
District Court,[where the Clerk mismailed to the wrong court and,
once the mistake was corrected], his application was DISMISSED for
lack of jurisdiction, citing he had not received a COA of
authorization from the Fifth Circuit.
Petitioner renewed his request for a COA to the Court of Appeals
for the Fifth Circuit, and it, too, was also denied, citing his
first claiituihaving priviously been raised in prior § 2254 and the
second claim as having failed to make the requisite prima facie
11

showing of a denial of a constitution! right.
Ever since the beginning filings of Mr. Boswell's claims for
the denial of his constitutional rights, the merits of his claims
have never been reviewed of considered due to state-created
impediments in his filing process.
Petitioner Boswell is now seeking a restoration or refresher
in the year 2021 of this Court's Ruling made back in the 2003 case
of Miller-El v Cockrell for the established fundamental rights set
forth in the U.S. Constitution by its framers. So that when any
state-prisoner, and including the Petitioner himself, is caught in
a similar situation

requesting a COA for habeas relief in a federal

court for the denial of their constitutional rights, they are given
a fuller consideration of the circumstances and of the substantial
evidence which the accuseduhas put forth in support of his/her
prima facie showing requesting a COA to review without being
arbitrarily denied the COA request to review for circumstances they
encounter beyond their control, as prisoners, by the lower courtcreated impediments, while diligently pursuing said relief, filed,
often as time barred, among other reasons, for denial of that very
constitutional right, as it has been for the Petitioner in his own
habeas corpus case at hand.
A COA inquiry asks only if the District Court's decision was
debatable.
The COA, standing alone 9

• • •

does not assert a grievance

against anyone, does not seek;remedy or redress for any legal
injury, and does not even require a 'party' on the other side.

12

Petitioner's habeas corpus petition is a "substantial showing
of a denial of his constitutional rights" and a clear violation of
Edwards v Arizona. 451 US 477, 101 S.Ct. 1880, 68 L.ED.2d 378 (1981)
which it is (impermissible for authorities "to reinterrogate an
accused in custody if he has clearly asserted his right to counsel.").
Edwards was "designed to prevent police from bargering a
defendant into waiving his previously asserted Miranda rights."
Edwards further stated that "if an accused is represented by
counsel 'prior to' his arrest, police intiated interrogation is
prohibited from further questioning without his attorney present
during any questioning <S>£ any kind."
A COA is nothing more than a request for permission to seek
review." Hohn v United States, 524 US 236, 256, 141 L.ED.2d, 118
SvCt. 1969 (1998).
Presenting his writ before this Honorable Court for their
threshold examination in the above decision; applying the same
prinicples as in Miller-El where this Court concluded a COA should
have issued. Mr. Boswell now asks if this Court would also be
convinced that the District Court's decision was debatable, and if
so, then he prays that he finds favor in the eyes of this Court to
reverse the judgment of the Fifth Circuit, and remand his case for
further proceedings consistant with its opinion along with any other
relief this Court deems necessary to grant.

13

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

i/V

